TN

C@OCKLE

2311 Douglas Street ; E-Mail Address:
Omaha, Nebraska 68102-1214 Le ga 1B rile fs contact@cocklelegalbriefs.com
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850 No
VF JEANSWEAR, LP,
Petitioner,

Vv.
U.S. EQUAL EMPLOYMENT
OPPORTUNITY COMMISSION,
Respondent.

AFFIDAVIT OF SERVICE

1, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the Ist day of October, 2019, send out
from Omaha, NE | package(s) containing 3 copies of the PETITION FOR WRIT OF CERTIORARI in the above entitled
case. All parties required to be served have been served by Priority Mail. Packages were plainly addressed to the following:

SEE ATTACHED
To be filed for:
JOSHUA WOODARD JAMES M. POWELL
JENNIFER R. YEE Counsel of Record
SNELL & WILMER LLP SAMUEL B. HARTZELL
400 East Van Buren WOMBLE BOND
Phoenix, AZ 85004 DICKINSON (US) LLP
(602) 382-6000 300 North Greene Street
jwoodard@swlaw.com Suite 1900
jryee@swlaw.com Greensboro, NC 27401
(336) 574-8081

Jimmy.Powell@wbd-us.com
Sam.Hartzell@wbd-us.com

Subscribed and sworn to before me this Ist day of October, 2019.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

PATRICIA BILLOTTE

ccs 2 CCl QO diab. Chile

My Commission Expires Nov 24, 2020

 

Notary Public Affiant 38652
SERVICE LIST

Noel J. Francisco

Solicitor General of the United States
U.S. Department of Justice

Room 5616

950 Pennsylvania Avenue, N.W.
Washington, DC 20530-0001

(202) 514-2217
supremectbriefs@usdoj.gov
